           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



THE SOCIAL SECURITY ADMINISTRATION’S
  REGIONAL OFFICE PROCEDURES FOR
   ADDRESSING EMPLOYEE-RELATED
      ALLEGATIONS IN REGION X

   March 2005        A-09-04-14089




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   March 30, 2005                                                      Refer To:

To:     Carl L. Rabun
        Regional Commissioner
         Seattle

From:   Inspector General

Subject: The Social Security Administration’s Regional Office Procedures for Addressing
        Employee-Related Allegations in Region X (A-09-04-14089)


        OBJECTIVE
        Our objectives were to evaluate the adequacy of the Social Security Administration’s
        (SSA) policies and procedures in Region X for addressing employee-related allegations;
        determine whether SSA complied with these policies and procedures; and determine
        whether SSA referred all employee-related allegations to the Office of the Inspector
        General (OIG), as appropriate.

        BACKGROUND

        SSA receives various types of allegations related to its programs, the misuse of
        Social Security numbers, and employee conduct. Some examples of employee-related
        allegations include violations of standards of conduct, ethics violations, and theft of
        Government property. SSA receives allegations from a number of sources, including
        employees, OIG, and the general public. Allegations concerning SSA employees are
        significant because of the potential dollar losses to SSA’s programs and the
        corresponding negative public impact. In determining the validity of allegations, SSA is
        required to obtain sufficient evidence to support or remove suspicion that criminal
        violations may have been committed.1




        1
            SSA, POMS, GN 04110.010A.
Page 2 – Carl L. Rabun

SSA’s procedures state:

        Prior to referral to the Office of the Inspector General, Office of
        Investigations Field Division, each potential violation and allegation
        must be developed by the field office, processing center, or other SSA
        office to the point where enough evidence has been secured to either
        remove suspicion or substantiate the violation.2

In the Seattle Region, the Office of the Regional Commissioner (ORC) receives and
reviews employee-related allegations from OIG. In addition, the Center for Security and
Integrity (CSI) and the Office of General Counsel receive and review employee-related
allegations from sources other than OIG. After the allegations have been reviewed, the
Seattle Regional Office (SRO) forwards cases involving potential criminal violations to
OIG and service issues to the applicable area or field office. The Center for Human
Resources processes adverse actions for any substantiated cases involving employee
misconduct.

In Fiscal Years (FY) 2002 and 2003, OIG referred 21 employee-related allegations to
SRO for action. In addition, SRO received 2753 employee-related allegations from
sources other than OIG. During our audit, we reviewed cases involving allegations of
employee fraud, criminal conduct, false statements, credit card misuse, security
violations, and/or misuse of Government property.

RESULTS OF REVIEW

Our review disclosed that SRO generally (1) had adequate policies and procedures in
place to address employee-related allegations and (2) referred potential criminal
violations to OIG, as required. However, we identified the following areas where SRO
could improve its handling of employee-related allegations.

•    SRO did not refer two potential criminal violations to the OIG for investigation.

•    SRO did not formally document its procedures for addressing employee-related
     allegations and distribute these procedures to individuals involved in resolving
     allegations.




2
    SSA, POMS, GN 04110.010B.
3
  The Office of General Counsel and CSI provided us control logs that included 275 cases involving
possible employee misconduct. From the control logs, we identified and selected for review the 48 cases
that contained the most serious allegations of employee misconduct. We defined the most serious
allegations as those that involved potential criminal violations.
Page 3 – Carl L. Rabun

•     SRO did not specifically identify, log and sequentially number employee-related
      allegations upon receipt.

•     SRO did not retain all of the case development documentation for 4 of the 21 OIG
      referrals of employee-related allegations.

REFERRALS TO THE OFFICE OF THE INSPECTOR GENERAL

SSA’s procedures require that the Agency contact OIG before initiating any
administrative or disciplinary action against an employee suspected of committing a
criminal violation.4 SSA requires that this be done to avoid prejudicing a possible
criminal action against the employee, alerting other possible suspects, or causing a
suspect or witness to stop cooperating with the investigation.5 Employee violations
include situations in which an employee is suspected of willfully participating in the
planning or execution of any scheme or other activity under which a financial or other
advantage improperly accrues or could accrue to any person at the Government’s
expense.6

SRO generally ensured that allegations of criminal violations were referred for
investigation. However, we identified two cases that should have been referred to OIG.
In 1 case, an employee incurred 48 unauthorized purchases on her Government Travel
Card totaling $5,523.77 and was charged with making a false statement to a supervisor.
The purchases were made in connection with her personal travel and not official
Government travel. SRO did not believe this case involved possible criminal violations
and therefore did not refer it to OIG. Instead, SRO believed it warranted an
administrative sanction and suspended the employee for 14 days.

In another case, an SSA beneficiary alleged that a field office employee had stolen her
identity. Another SSA employee reported the beneficiary’s allegation to CSI and stated
that she was aware of two potentially inappropriate business transactions between the
beneficiary and the employee. One of these transactions involved the sale of the
beneficiary’s residence to the SSA employee. In the other transaction, the beneficiary
secured a loan that allowed the employee to purchase a vehicle. As a result of these
allegations, CSI reviewed the records the employee had accessed from her computer.
CSI found that the employee had inappropriately accessed the records of her relatives
in more than 40 instances. The employee subsequently retired on a disability, and SRO
took no other actions. SRO did not believe pursuing a possible administrative
suspension was feasible since the employee had retired. While administrative
sanctions were limited after the employee retired, criminal sanctions were still possible.

4
    SSA, POMS, GN 04112.010B.
5
    SSA, POMS, GN 04112.010A.
6
    SSA, POMS, GN 04112.005D.
Page 4 – Carl L. Rabun

Our Office of Investigations staff informed us that both of these cases should have been
referred to it for investigation. In addition, these allegations involved actions that were
the same as, or similar to, those actions identified on SSA’s list of employee violations
that must be referred to the OIG (Appendix C).7 SRO needs to promptly refer all
employee-related allegations involving potential criminal violations to OIG.

DOCUMENTATION AND DISTRIBUTION OF PROCEDURES

SSA’s procedures require that the Agency meet documentation standards to ensure
adequate and proper records are made and preserved. Specifically, these standards
state that SSA’s programs, policies, and procedures are to be adequately documented
in its directives.8

SRO did not formally document its procedures for addressing employee-related
allegations and distribute these procedures to individuals involved in resolving the
allegations. SRO should establish written policies and procedures to provide additional
assurance that individuals responsible for addressing employee-related allegations take
appropriate action in a timely and consistent manner. During our audit, CSI was
drafting procedures for systems security violations. However, SRO had not written
policies and procedures for addressing other types of employee-related allegations.

CONTROLLING AND MANAGING EMPLOYEE-RELATED ALLEGATIONS COULD
BE IMPROVED

SSA’s procedures require that the Agency preserve records that (1) properly document
the Agency’s organization, functions, policies, decisions, procedures, and essential
transactions and (2) protect the legal and financial rights of the Government and
persons directly affected by its activities.9 In addition, SSA’s procedures require that
control logs be retained for 2 years.10




7
    SSA, POMS, GN 04112.005D.
8
 Administrative Instructions Manual System (AIMS), Records Management Handbook, SSA Records
Retention and Disposition Program, chapter 01.06.
9
  AIMS, Records Management Handbook, SSA Records Retention and Disposition Program,
chapter 01.02.
10
     AIMS, Operational and Administrative Records, CMS 02.01.00.
Page 5 – Carl L. Rabun

    Control Logs - We found SRO’s procedures for controlling, documenting and
monitoring employee-related allegations could be improved by using a control log with
sequential numbering. Such a system would readily provide management with
information identifying the number of employee-related allegations received, reviewed,
and completed, as well as those that remained unresolved. This information would also
enable the SRO to identify the total number of employee-related allegations received
and would provide a basis for verifying that all files related to allegations were
maintained. Until such changes are made, management will be limited in its ability to
easily identify employee-related allegations that still require a review and response.

    Retention of Case Development Documentation - SRO did not retain complete
records for 4 of the 21 (19 percent) allegations received from OIG. Although OIG had
referred the four cases to SRO for review, SRO did not maintain all of the records for
these referrals. Specifically, SRO was unable to provide

•   the resolution or response for two allegations,

•   evidence of the receipt and response for one allegation, and

•   documentation indicating whether one allegation had been addressed. In this case,
    ORC informed OIG in April 2002 that an allegation involving potential theft by an
    SSA employee required further review by CSI. However, ORC could not provide us
    documentation to show whether CSI ever addressed or resolved the allegation.

For the remaining three cases, ORC was able to provide documents that indicated SRO
had addressed and resolved the allegations.

CONCLUSION AND RECOMMENDATIONS

While SRO’s policies and procedures for addressing employee-related allegations were
generally adequate, we found that SRO could improve in the areas of referring potential
criminal violations to OIG, documenting and distributing procedures, establishing and
maintaining control logs, and retaining case development documentation. Therefore,
we recommend SRO:

1. Ensure all employee-related allegations involving potential criminal violations are
   identified and referred to OIG.

2. Develop and distribute written procedures to provide additional assurance that
   individuals responsible for addressing employee-related allegations take appropriate
   action.
Page 6 – Carl L. Rabun

3. Establish and maintain a control log that identifies the receipt, development and
   disposition of employee-related allegations.

4. Ensure that case development documentation for employee-related allegations is
   retained.

5. Follow up and take appropriate action for the case in which ORC was unable to
   provide documentation indicating whether the employee-related allegation was
   addressed or resolved.

AGENCY COMMENTS
SSA agreed with all of our recommendations. See Appendix D for the text of SSA’s
comments.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Employee Violations
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
AIMS       Administrative Instructions Manual System

CSI        Center for Security and Integrity

FY         Fiscal Year

OIG        Office of the Inspector General

ORC        Office of the Regional Commissioner

POMS       Program Operations Manual System

SRO        Seattle Regional Office

SSA        Social Security Administration

SSN        Social Security Number
                                                                                 Appendix B

Scope and Methodology
Our audit covered the period October 1, 2001 through September 30, 2003. For this
period, we reviewed 21 employee-related allegations the Office of the Regional
Commissioner (ORC) received from the Office of Inspector General (OIG). Additionally,
we reviewed 481 employee-related allegations the Office of General Counsel and
Center for Security and Integrity (CSI) received from other sources. To accomplish our
objectives, we

•   reviewed the applicable Federal laws, regulations and Social Security Administration
    (SSA) policy, including SSA’s Administrative Instructions Manual and Program
    Operations Manual Systems;

•   interviewed SSA employees from ORC, the Center for Human Resources, and CSI
    in the Seattle Region;

•   evaluated SSA’s policies and procedures for addressing employee-related
    allegations in the Seattle Region;

•   obtained a database of allegations received by OIG in Fiscal Years (FY) 2002 and
    2003 to identify the universe of employee-related allegations in the Seattle Region;

•   reviewed 21 employee-related allegations received by ORC from OIG in FYs 2002
    and 2003;

•   obtained and reviewed 48 employee-related allegations, including adverse actions,
    received by the Office of General Counsel and CSI in FYs 2002 and 2003;

•   reviewed the supporting documentation and development of evidence for the
    employee-related allegations; and

•   determined whether employee-related allegations involving potential criminal
    violations were referred to the OIG.




1
  The Office of General Counsel and CSI provided us control logs that included 275 cases involving
possible employee misconduct. From the control logs, we identified and selected for review the 48 cases
that contained the most serious allegations of employee misconduct. We defined the most serious
allegations as those that involved potential criminal violations.


                                                  B-1
We performed our field work in Richmond, California, and Seattle, Washington, between
March and October 2004. We determined the computerized data used were sufficiently
reliable to meet our audit objectives. The entity audited was the Seattle Regional Office
within the Office of the Deputy Commissioner for Operations. We conducted our audit
in accordance with generally accepted government auditing standards.




                                           B-2
                                                                                       Appendix C

Employee Violations

                      LIST OF POTENTIAL EMPLOYEE VIOLATIONS
Employee violations include but are not limited to situations in which an employee is suspected of
willfully:

•   acting as an agent or attorney for prosecuting any Social Security claim before the Commissioner
    while an employee;
•   disclosing without authorization any confidential information in violation of the Social Security Act or
    the Privacy Act of 1974;
•   obtaining or attempting to obtain confidential information under false pretenses;
•   making or causing to be made any false representation concerning the requirements of the
    Social Security Act or related provisions of the Internal Revenue Code;
•   asking for, accepting, or agreeing to accept anything of value from a third party in return for
    executing or influencing the performance of official duties;
•   participating in the planning or execution of any scheme or other activity under which a financial or
    other advantage improperly accrues or could accrue to any person or organization at the expense
    of the Government or parties with whom the Government may contract or otherwise deal;
•   stealing or otherwise illegally disposing of refund remittances, Government checks, cash, directly
    deposited funds, or other obligations;
•   illegally generating Social Security checks or depositing funds electronically to oneself or another;
•   stealing or mutilating Government records, or destroying or removing them without authorization;
•   violating conflict of interest laws as described in the Ethics in Government Act, the Standards of
    Ethical Conduct for Employees of the Executive Branch, and the Social Security Administration's
    Guide on Employee Conduct;
•   making or causing to be made any false statement or representation about wages, earnings, or
    selfemployment income in connection with claims or the maintenance of earnings records;
•   making or causing to be made any false statement or representation of a material fact in an
    application for payments or for a disability determination, or at any other time for use in determining
    rights to payments;
•   concealing or failing to disclose a fact or event affecting initial or continued eligibility for payment;
•   furnishing or causing to be furnished false information about identity in connection with a claim,
    issuing a Social Security number (SSN), or maintaining an earnings record;
•   selling SSNs/cards; or
•   unlawfully disclosing, using, or compelling the disclosure of an SSN.

Source: SSA, POMS, GN 04112.005D.
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY



Date:     March 10, 2005


From:     Regional Commissioner
          Seattle Region

Subject: The Social Security Administration’s Regional Office Procedures for Addressing Employee-
         Related Allegations in Region X (A-09-04-14089) -- INFORMATION


We have reviewed the draft report and appreciate the independent review of our processes and your
suggestions for improvements. Our response to your five (5) recommendations follows.

1. Insure all employee-related allegations involving potential criminal violations are identified and
   referred to OIG.

We agree with this recommendation.

We believe our process for the identification and referral of potential criminal violations to OIG is sound.
Your review of 296 cases identified 2 cases (.68%) you believed should have been referred to OIG for
possible action. As discussed with the auditors, we believe we had reasonable justification for the
management decisions we made not to refer the two cases.

We also believe the soon-to-be-released enhancements to the e-8551 process will ensure that cases are
appropriately referred to OIG. The process revision will allow direct input of employee cases into the OIG
National Investigative Case Management System (NICMS) and downloaded into the Fraud Information
Tracking System (FITS). Consistent with the DCO/OIG OI agreement, we intend to refer all Category III
systems cases or Categories I and II that may involve a criminal issue using this revised process.

2. Develop and distribute written procedures to provide additional assurance that individuals
   responsible for addressing employee-related allegations take appropriate action.

We agree with this recommendation.

At the time of the audit, we were developing a more formalized process which described the role of each
RO component (Center for Security and Integrity, Office of General Counsel and the Labor and Employee
Relations Team). That process is now final. As suggested, we believe these written procedures will result
in a well controlled and timely approach to these cases.




                                                    D-1
3. Establish and maintain a control log that identifies the receipt, development and disposition of
   employee-related allegations.

We agree with this recommendation.

At the time of the audit, the control log for those referrals from the OIG Allegation Management Division
(AMD) contained some incomplete documentation. Those deficiencies were corrected at the time of the
audit and a tight control is now in place. Based on the diverse workloads of CSI, OGC and LERT, each
maintains a separate log to effectively control unit-specific actions. Given the sensitivity of the information
and the resulting “need to know”, these separate logs ensure the appropriate level of confidentiality.

However, we do agree that any logs maintained should be maintained chronologically, so we will ensure
they are numerically sequenced. We are also considering the feasibility of a single, web-based, master log
for employee cases, with very strict access rights. Finally, as mentioned in our response to item 1, the e-
8551 enhancements will ensure much better control of employee cases.

4. Ensure that case development documentation for employee-related allegations is retained.

We agree with this recommendation.

We have reminded everyone involved in the employee case process of the need to retain all working
materials for the required retention period.

5. Follow up and take appropriate action for the case in which ORC was unable to provide
   documentation indicating whether the employee-related allegation was addressed or resolved.

We agree with this recommendation.

The OIG auditors provided CSI with a copy of the original allegation from the AMD (Hunt). We will reopen
the case to ensure it is resolved and our results will be provided to OIG.

If your staff have any questions, please have them contact Ken St. Louis, Director, Center for Security and
Integrity at 206-615-2150, email at ken.st.louis@ssa.gov
or via fax at 206-615-2147.



                                                            /s/
                                                      Carl L. Rabun




                                                    D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joseph Robleto, Audit Manager, (510) 970-1737

Acknowledgments

In addition to those named above:

    Nicole Kato Sullivan, Auditor-in-Charge

    Brennan Kraje, Statistician

    Kim Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 966-1375. Refer to Common Identification Number
A-09-04-14089.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
